HHS/OIG-Audit--"Review of Pension Costs Claimed for Medicare Reimbursement by Blue Cross and Blue Shield of Oregon, (A-07-95-01153)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Reimbursement by Blue Cross
and Blue Shield of Oregon," (A-07-95-01153)
October 25, 1995
Complete Text of Report is available in PDF format
(108 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Pension Costs Claimed
for Medicare Reimbursement by Blue Cross and Blue Shield of Oregon (Oregon).
For 1993 and 1994, Oregon underclaimed allowable Medicare pension costs. During
this period, the allowable Medicare pension costs were $243,881. However, Oregon
claimed pension costs of $198,217 for Medicare reimbursement. As a result, Oregon
did not claim $45,664 of allowable pension costs. The underclaim occurred primarily
because Oregon based its pension cost calculations on incorrect pension asset
values for the Medicare segment. We recommended Oregon revise its Final Administrative
Cost Proposals to reflect the remaining allowable pension costs. Oregon agreed
with our recommendations.